February 2, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Reply Mail Oversight Reviews – Hudson Post Office -
         Hudson, NH (Report Number FF-MA-11-016)


This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s Business Reply Mail testing at the Hudson Post
Office, Hudson, NH (Project Number 11BR003FF001), performed November 17, 2010.
The Hudson Post Office is in the Northern New England District of the Northeast Area.
At the conclusion of FY 2011 we will summarize the results for all reviews in reports to
Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission, which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC Group to conduct tests of key
financial reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Council of the Inspectors General on Integrity and
Efficiency, Quality Standards for Inspection and Evaluation.




                                   Restricted Information
Fiscal Year 2011 Financial Testing Compliance Business Reply             FF-MA-11-016
 Mail Oversight Reviews – Hudson Post Office,Hudson, NH



Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls. See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management agreed not to respond to the interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Guy Sergi, audit manager, at
781-904-8414, or me at 781-904-8402.

   E-Signed by Kevin Ellenberger
 VERIFY authenticity with ApproveIt
  Wednesday, 02 February, 2011



Kevin H. Ellenberger
Director, Field Financial – East

Attachments

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                    2
                                         Restricted Information
Fiscal Year 2011 Financial Testing Compliance Business                             FF-MA-11-016
 Reply Oversight Reviews – Hudson Post Office, Hudson, NH



                                  APPENDIX A: REVIEW RESULTS

      Site Name                                                   Hudson Post Office Business Reply Mail
      Unit 10-Digit Cost Center Code                              3241401051
      Location Type                                               BRM
      Scope Period Under Review                                   November 17, 2010
      FTC Review Program Version and Date                         BRM November 10, 2010
      FTC Team                                                    East



                                                                                   Did FTC
                                                                     Did FTC      adequately
                                                  Did the OIG      perform the   document its
                                                     have             step in        work
  FTC                            Did FTC have     exceptions/      accordance     performed        Did the OIG agree
 Review       FTC Review         exceptions/ in    that FTC            to its       and the         with FTC's site
 Step #/          Step             this step?      did not?         program?       results?            results?*
Control #     Description           (Yes/No)       (Yes/No)          (Yes/No)      (Yes/No)            (Yes/No)
108.CA10    Documenting                NO             NO                YES          YES                 YES
            revenue and
            providing
            customers with
            an invoice.

108.CA11    Documenting               N/A             N/A              N/A            N/A                  N/A
            insufficient funds
            and cancelling
            BRM
            transactions
            from
            PostalOne!.


* Based on our review of FTC’s documentation posted to the Blue Share on December 21, 2011.




                                                    3
                                         Restricted Information
